DOE/IG-0453




          AUDIT
         REPORT



                                 WASTE INCINERATION
                                       AT THE
                                 SAVANNAH RIVER SITE




                                          OCTOBER 1999




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                             October 13, 1999

MEMORANDUM FOR THE SECRETARY

FROM:           Gregory H. Friedman (Signed)
                Inspector General

SUBJECT:        INFORMATION: Audit Report on "Waste Incineration at the Savannah River Site"


BACKGROUND

The Department constructed the Consolidated Incinerator Facility (CIF) at the Savannah River Site (Site) to
reduce the toxicity, mobility, and volume of waste products generated at the Site. The facility was built at a
cost of $102 million, and became operational in April 1997. Westinghouse Savannah River Company
(Westinghouse) operates the facility for the Department at an average annual cost of $19 million. The
objective of this audit was to determine whether Westinghouse was operating the CIF at the capacity
permitted by the State of South Carolina.

RESULTS OF AUDIT

The audit disclosed that the CIF was not operating at its permitted capacity. The CIF was operated at
about 8 percent of capacity in FYs 1997 and 1998 to minimize the risk of unexpected errors and equipment
failures during system start-up, and to accommodate special handling and disposal requirements associated
with burning chemicals listed in the Resource Conservation and Recovery Act (RCRA). However, in FY
1999 and beyond, Westinghouse planned to operate the CIF at no more than 32 percent of capacity. This
occurred because the Department designed the CIF to incinerate more waste than the Site had available for
treatment.

Although Westinghouse may never have sufficient waste available to operate the CIF at its permitted
capacity, the audit disclosed several process improvements which could increase the efficiency of the CIF
and significantly reduce its operating costs. Specifically, we found that the rate of PUREX and solid waste
incineration at the CIF could be significantly increased. Westinghouse could increase the amount of PUREX
incinerated per year by using a second blend tank and using less water and fuel oil to dilute the PUREX
solution. These changes could reduce the cost of PUREX incineration and reduce the time required to
complete the incineration. Also, Westinghouse could reduce the cost of solid waste incineration by
increasing the feed rate. These four changes could reduce the total operating costs to incinerate the
projected waste streams by $595 million.

MANAGEMENT REACTION

Management concurred with the finding and the first three recommendations. In terms of corrective actions,
Management agreed to revise the performance incentive covering CIF operations to reward the incineration
of undiluted PUREX only. Management also agreed to use a second dilution tank, and to reduce the dilution
                                                     -2-


ratio for PUREX, with a goal of 50:1 or lower. When completed, these three actions should save $576
million.
Regarding recommendation 4, to increase the feed rate for solid waste, management agreed with the intent
but we found that its proposed alternative action was not fully responsive. Rather than increase the feed
rate, management's alternative plan for improving the efficiency of solid waste burning was to study solid
waste disposal methods other than incineration. This has the potential to reduce future costs, but will not
reduce the immediate cost of burning solid waste.

Attachment

cc: Under Secretary
    Deputy Secretary
WASTE INCINERATION AT THE SAVANNAH RIVER SITE


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..................................................................1

                 Conclusions and Observations.................................................. 2


                 Operating Below Capacity

                 Details of Finding ...............................................................................3

                 Recommendations and Comments ..................................................7


                 Appendix

                 Scope and Methodology.....................................................................9
Overview

INTRODUCTION   The Consolidated Incinerator Facility (CIF), located at the Savannah River
AND            Site (Site), was built at a cost of $102 million to reduce the toxicity, mobility,
               and volume of waste products generated at the Site. The CIF was designed
               to simultaneously incinerate liquid and solid forms of waste, including
               hazardous, low-level radioactive, and mixed (hazardous and radioactive)
               waste. The facility became operational in April 1997. The CIF is operated
               for the Department by the Westinghouse Savannah River Company
               (Westinghouse), at an average annual cost of $19 million, and is staffed with
               approximately 110 employees.

               The CIF receives waste for incineration through four individual ports. Liquid
               waste is accumulated in the CIF tank farm and fed through the aqueous and
               organic feed ports. Solid waste is packaged in cardboard boxes and fed
               through the solid feed port. Benzene liquid waste is piped directly from the
               Defense Waste Processing Facility (DWPF) and fed through the benzene
               feed port.

               The biggest challenge for the CIF is incinerating 869,000 pounds of undiluted
               liquid PUREX solvent at the Site. PUREX solvent is a liquid waste
               generated by the Site's Separation Facilities. To be incinerated safely, the
               PUREX must first be diluted. The current procedure is to dilute 250 gallons
               of undiluted PUREX with 25,000 gallons of water or fuel oil (100:1 dilution
               rate) in the single dilution tank that is connected to the CIF. Westinghouse
               planned to burn 13 batches of PUREX in FY 2000. Westinghouse
               expected it to take approximately 13 days to burn one batch of PUREX,
               followed by approximately 4 days of downtime associated with diluting and
               preparing the next batch for incineration.

               The Office of Inspector General (OIG) recently issued a report on waste
               incineration. Report DOE/IG-0451, Waste Incineration at the Oak Ridge
               Reservation (August 1999), concluded that the Department did not operate
               the Toxic Substances Control Act Incinerator at the capacity permitted by
               the State of Tennessee. The audit determined that the Department could
               treat all of the Oak Ridge Reservation's incinerable waste by June 2000 and
               save $39 million by closing the incinerator 39 months earlier than planned.
               The OIG is also currently performing an audit of waste incineration at the
               Idaho National Engineering and Environmental Laboratory in Idaho Falls,
               Idaho.

               The objective of this audit was to determine whether Westinghouse was
               operating the CIF at the capacity permitted by the State of South Carolina.

Page 1                                                           Introduction and Objective
CONCLUSIONS AND   Westinghouse was not operating the CIF at its permitted capacity. The CIF
OBSERVATIONS      was operated at about 8 percent of capacity in FYs 1997 and 1998, and
                  Westinghouse planned to operate the CIF at 32 percent of capacity or less in
                  FY 1999 and beyond. This occurred because the Department designed the
                  CIF to incinerate more waste than the Site had available for treatment. Also,
                  in FYs 1997 and 1998, Westinghouse operated the CIF below capacity to
                  minimize the risk of unexpected errors and equipment failures during system
                  start-up, and to accommodate special handling and disposal requirements
                  associated with burning chemicals listed in the Resource Conservation and
                  Recovery Act (RCRA).

                  Although Westinghouse may never have sufficient waste available to operate
                  the CIF at its permitted capacity, it could significantly increase the rate of
                  PUREX and solid waste incineration at the CIF through process
                  improvements. Westinghouse could increase the amount of PUREX
                  incinerated per year by using a second blend tank and using less water and
                  fuel oil to dilute the PUREX solution. These changes could reduce the cost of
                  PUREX incineration and reduce the time required to complete the
                  incineration. Also, Westinghouse could reduce the cost of solid waste
                  incineration by increasing the feed rate. These changes could reduce the total
                  operating costs to incinerate the projected waste streams by $595 million.

                  This audit identified issues that management should consider when preparing
                  its yearend assurance memorandum on internal controls.


                                                                    Signed
                                                            Office of Inspector General




Page 2                                                      Conclusions and Observations
OPERATING BELOW CAPACITY


Westinghouse Could       The CIF could have operated at an annual capacity of 13.3 million pounds of
Have Incinerated 13.3    waste materials (5.8 million pounds of aqueous liquid, 2.4 million pounds of
Million Pounds of        organic liquid, 3.9 million pounds of solids, and 1.2 million pounds of
Waste Under the          benzene). The annual capacity of the CIF was determined by a combination
State Permit             of design operating utilities, permitted throughput rates, and the design
                         thermal rate limit.

                         The operating utilities are defined as the time available for treating waste
                         expressed as a percentage of a 24-hour day. The CIF was designed to
                         achieve operating utilities of 70 percent for treating liquid waste and 50
                         percent for treating solid waste.

                         The throughput rates are defined as the amount of waste that can be fed into
                         the incinerator through the individual feed ports. The State of South Carolina
                         permitted the CIF to receive aqueous waste at a rate of 950 pounds per
                         hour, organic liquid waste with suspended solids at a rate of 385 pounds per
                         hour, solid waste at a rate of 900 pounds per hour, and benzene at a rate of
                         191 pounds per hour.

                         The thermal rate limit is based on the amount of heat that can be safely and
                         effectively dissipated from the incinerator expressed in terms of British
                         Thermal Units (BTU) per hour. The CIF was designed to operate at a
                         maximum thermal capacity of 36.7 million BTUs per hour, which is
                         controlled by tracking the combined thermal heat produced by the waste
                         forms and auxiliary fuel oil present in the incinerator at any given time.

Westinghouse             Westinghouse did not operate the CIF at its permitted capacity.
Operated the CIF Below   Westinghouse incinerated approximately 1.5 million pounds of materials
its Permitted Capacity   during FYs 1997 and 1998, which was less than 8 percent of capacity.
                         Further, Westinghouse planned to incinerate no more than 4.2 million pounds
                         of materials in FY 1999 and future years. Thus, the maximum level of
                         planned operations was about 32 percent of capacity.

                         Additionally, the amount of waste actually incinerated at the CIF was less
                         than the 1.5 million pounds of materials reported by Westinghouse for FYs
                         1997 and 1998, and could be substantially less for future years.
                         Westinghouse measured and reported on the weight of all materials burned in
                         the CIF rather than waste materials only. In FYs 1997 and 1998, about
                         23 percent of the materials burned in the CIF were flush or dilution materials
                         (mostly water) or solid waste generated by the CIF during the incineration
                         process. Westinghouse planned to incinerate large amounts of PUREX in
Page 3                                                                               Details of Finding
                           future years using a process that would require large quantities of water or
                           fuel oil to dilute and flush the solution during treatment. According to the
                           current burn plan, these non-waste materials will account for 83 to
                           99 percent of the total material incinerated in future years.

                           In accordance with the Government Performance and Results Act of
                           1993, the Department established performance measures requiring
                           Westinghouse to burn specific amounts of materials in support of the Site
                           Treatment Plan and the Department’s Complex Integration Initiatives.
                           However, the performance measures were misdirected because they
                           allowed Westinghouse to measure and report on all materials burned in
                           the CIF rather than waste materials only.

                           Westinghouse was not operating the CIF at its permitted capacity
Westinghouse Operated at   because the incinerator was designed and permitted to treat more waste
Less Than Permitted        than the Site had available for treatment. Also, in FYs 1997 and 1998,
Capacity for Several       Westinghouse operated the CIF below its permitted capacity to minimize
Reasons                    the risk of unexpected errors and equipment failures during system start-
                           up, and to accommodate special handling and disposal requirements
                           associated with burning RCRA listed waste.

                                       Incinerator Was Designed and Permitted to Treat
                                                 More Waste Than Available

                           The CIF was designed and permitted to treat more waste than the Site
                           had available for incineration. The CIF was designed and permitted to
                           incinerate solid waste and benzene at a rate of 5.1 million pounds per
                           year; however, Westinghouse expected to have only 0.5 million pounds of
                           solid waste and benzene on-hand during FY 1999. Further,
                           Westinghouse planned to have no more than 1.3 million pounds of solid
                           waste and benzene on-hand in any future year.

                           One reason for the limited amount of waste available for incineration was
                           the postponement of decontamination and decommissioning (D&D) work
                           at the Site. Before the CIF began operations, Westinghouse expected to
                           generate up to 12 million pounds of solid waste from the D&D of more
                           than 600 surplus, contaminated facilities at the Site. However, the
                           Savannah River Operations Office (Operations Office) had no plans to
                           perform any of the D&D activities before FY 2007 due to funding
                           limitations.


Page 4                                                                            Details of Finding
         Another reason for the limited amount of waste available for incineration
         was the lack of benzene received from the Defense Waste Processing
         Facility (DWPF). The In-Tank Precipitation Facility was to process the
         soluble portion of the high level waste and send this processed waste as
         feed to the DWPF. In treating this portion of the waste stream, the
         DWPF would segregate cesium and products that produce benzene, of
         which benzene would be provided to the CIF for incineration. However,
         due to technical problems, the In-Tank Precipitation Facility is not
         operational, and the DWPF is operating on the insoluble portion of the
         high level waste only. The Department and Westinghouse are reviewing
         options for a replacement facility. In the meantime, the CIF will not
         receive any benzene for incineration.

               Conservative Approach Was Used During System Start-Up

         Even if sufficient waste had been available, Westinghouse used a
         conservative approach to operate the CIF during system start-up.
         Management carefully limited the amounts and types of waste incinerated
         to allow employees to develop lessons-learned from operating a new
         facility, and to minimize the risk of unexpected errors and equipment
         failures. This was a major consideration in FYs 1997 and 1998, but it
         should not be a major factor in future years.

            Feed Rates Were Limited to Accommodate Special Handling and
                               Disposal Requirements

         Also, Westinghouse limited the amount of waste incinerated in FYs 1997
         and 1998 to accommodate the special handling and disposal requirements
         associated with burning RCRA listed waste. RCRA listed waste must be
         handled and disposed of according to the RCRA Land Disposal
         Restriction Regulations. This disposal method was more expensive than
         disposing of non-listed waste. Therefore, Westinghouse limited the
         RCRA listed waste incinerated in FYs 1997 and 1998 to materials that
         would produce very little residue. For example, Westinghouse did not
         incinerate low-level solid waste during the listed waste campaign because
         it produced large amounts of residue. Westinghouse planned to operate a
         listed waste campaign once every 5 years, with the next campaign
         occurring in FY 2005.




Page 5                                                        Details of Finding
Westinghouse Could        Westinghouse may never have sufficient waste available to operate the
Increase Feed Rates for   CIF at its permitted capacity. However, Westinghouse could
PUREX and Solid Waste     substantially increase the feed rates for PUREX and solid waste
                          incinerated at the CIF. The feed rate for PUREX could be increased
                          from 27,840 pounds to 79,230 pounds per year by using a second blend
                          tank and reducing the dilution rate. These changes could reduce the cost
                          of incinerating PUREX from $1,105 per pound to $442 per pound and
                          reduce the time required to complete the incineration from 55 years to 23
                          years. Also, Westinghouse could increase the feed rate for solid waste,
                          thereby reducing the cost of incineration from $8.04 per pound to $4.15
                          per pound. These changes could reduce the total operating costs to
                          incinerate the projected waste streams by $595 million.

                          Westinghouse was using only one blend tank to dilute PUREX before
                          feeding it to the CIF. The use of a single tank required Westinghouse to
                          cease PUREX incineration for approximately 4 days between batches.
                          The downtime was required to prepare a new batch of PUREX solution
                          and complete laboratory tests prior to beginning the next incineration
                          cycle. However, the CIF had a second tank in place that could be
                          connected to the CIF at an estimated cost of $500,000. If the second
                          tank were used, one tank could be used to feed diluted PUREX to the
                          CIF while the other tank is prepared for incineration. The use of the
                          second tank could eliminate downtime between batches and increase the
                          amount of PUREX incinerated from 27,840 pounds per year (13
                          batches) to 39,610 pounds per year (18 ½ batches).

                          Further, through May 1999, Westinghouse diluted PUREX for
                          incineration using at least 100 gallons of water for every gallon of
                          undiluted PUREX. We discussed the possibility of reducing the dilution
                          ratio with Westinghouse and Operations Office management during the
                          audit. From our discussions, we believe Westinghouse could safely
                          double the amount of PUREX it incinerates by reducing the dilution ratio
                          from 100:1 to 50:1. Subsequent to our discussions, Westinghouse
                          reduced the dilution ratio for its next batch of PUREX to 89:1 and stated
                          that it planned to gradually reduce the dilution ratio below 50:1. If
                          Westinghouse can safely reduce the dilution ratio to 50:1, the change
                          could increase the amount of PUREX incinerated from 39,610 pounds
                          per year to 79,230 pounds per year, provided a second blend tank is
                          used.



Page 6                                                                         Details of Finding
                  Finally, Westinghouse could significantly reduce the cost of incinerating
                  solid waste by increasing the existing feed rate. Westinghouse stated that
                  its goal was to incinerate 640 boxes of solid waste per week using 2
                  shifts. However, Westinghouse planned to incinerate only about 405
                  boxes of solid waste per week using 2 shifts. After the majority of stored
                  solid waste has been incinerated, which would take about 2 years,
                  Westinghouse could incinerate all solid wastes generated by on-site
                  activities using a single shift.

RECOMMENDATIONS   We recommend that the Manager, Savannah River Operations Office:

                          1. Revise performance measures for CIF operations to reduce
                             waste inventories;

                          2. Direct Westinghouse to use two blend tanks to prepare and
                             feed PUREX to the incinerator;

                          3. Direct Westinghouse to reduce the dilution ratio for PUREX
                             to 50:1 or lower unless tests show that to do so would
                             increase safety and health risks for workers or the public; and

                          4. Direct Westinghouse to increase the feed rate for solid waste
                             to 640 boxes per week.

                  The Savannah River Operations Office management concurred with the
MANAGEMENT        finding and recommendations 1, 2, and 3. Also management stated that it
REACTION          concurred with the intent of recommendation 4, but proposed an
                  alternative action.

                  Management agreed that past performance incentives were not clearly
                  written to reiterate its intent to only reward Westinghouse for reducing
                  inventories of waste. However, management stated that in the past,
                  Westinghouse had only received an incentive award based on actual
                  reduction of waste inventories. Management proposed a draft version of
                  the FY 2000 Performance Incentive stating that Westinghouse will only
                  be rewarded for incinerating "undiluted gallons of PUREX treated."

                  Management agreed to proceed with the recommended facility
                  modifications concerning a second blend tank. Management stated that
                  there were technical problems and regulatory issues, concerning the


Page 7                                              Recommendations and Comments
                   movement of some PUREX prior to incineration, that must be addressed
                   before the full savings can be realized.

                   Management agreed that the dilution rate for PUREX needed to be reduced.
                   Management stated that it was currently evaluating a 50:1 dilution rate as
                   well as lower rates.

                   Finally, management agreed that the solid feed rate to the kiln is not optimal.
                   Management is continuing to evaluate the most cost effective approach to
                   solid waste disposal at the Site, and is committed to burning the maximum
                   number of boxes at the CIF as possible. Management stated that it intended
                   to utilize the Solid Waste System Plan as a management tool to evaluate
                   disposition options for solid waste streams to determine the appropriate
                   quantities of solid waste that should be treated at the CIF and staff
                   appropriately.

                   Management's draft FY 2000 Performance Incentive for the CIF is fully
AUDITOR COMMENTS
                   responsive to the intent of Recommendation 1. Also, management's plan to
                   use the spare tank at the CIF to prepare and feed PUREX to the incinerator
                   is fully responsive to Recommendation 2. Further, management's proposal
                   to reduce the dilution rate to 50:1 or lower is fully responsive to
                   Recommendation 3. When completed, these actions should save $576
                   million.

                   Management's response to Recommendation 4 is partially responsive.
                   Management's alternative proposal is to study other disposal options. We
                   agree that other options should be studied. However, until the studies are
                   completed and a better course of disposal is identified, we believe that solid
                   waste should be incinerated at a higher feed rate.




Page 8                                                   Recommendations and Comments
Appendix

SCOPE         The audit was performed from October 28, 1998, to July 12, 1999, at the
              Savannah River Site in Aiken, South Carolina. The audit covered waste
              incinerated at the CIF during FYs 1997, 1998, and 1999, as well as plans
              for incinerating waste in the future.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Reviewed the design utility rates, permitted feed rates, and waste
                      feed limitations for the CIF;

                  •   Analyzed the number of hours the CIF was available for burning
                      waste;

                  •   Evaluated the number of hours the CIF burned waste; and

                  •   Determined the pounds of waste that were actually incinerated at the
                      CIF.

              The audit was performed in accordance with generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Accordingly, the assessment included reviews of
              Departmental and contractor policies, procedures, and performance
              measures related to the management and control of the CIF incineration
              activities. Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the time of
              our audit. We assessed the reliability of computer generated data by
              comparing it to independently generated data sources and found the data to
              be reliable for the purposes of this audit.

              We held an exit conference with officials from the Savannah River
              Operations Office on September 16, 1999.




Page 9                                                          Scope and Methodology
                                                                                     IG Report No. DOE/IG-0453

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-0948, or
you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:


                        Department of Energy Management and Administration Home Page
                                           http://www.hr.doe.gov/ig
                                                      or
                                            http://www.ma.doe.gov

                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.

                                        This report can be obtained from the
                                             U.S. Department of Energy
                                    Office of Scientific and Technical Information
                                                     P.O. Box 62
                                           Oak Ridge, Tennessee 37831
